Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 NIH ADMINISTRATION OF THE
 CLINICAL AND TRANSLATIONAL
  SCIENCE AWARDS PROGRAM




                    Daniel R. Levinson
                     Inspector General

                      December 2011
                     OEI-07-09-00300
   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                         1. To determine the extent to which the National Institutes of
                            Health (NIH) administered the Clinical and Translational
                            Science Award (CTSA) program in accordance with Federal
                            regulations and Department of Health and Human Services
                            (HHS) and NIH policies for:
                                         •       monitoring awardee progress in achieving the goals and
                                                 milestones of the program (awardee progress),
                                         •       ensuring timely submission of reports, and
                                         •       maintaining official files.
                         2. To determine whether CTSA program staff provided substantial
                            involvement to awardees in accordance with Federal regulations
                            and HHS and NIH policies.


                  BACKGROUND
                  In 2006, NIH’s National Center for Research Resources (NCRR)
                  established the CTSA program to provide external research awards for
                  expediting scientific research for new medical treatments. As of
                  March 2011, NCRR had awarded CTSA research awards to 55 domestic
                  graduate schools, with planned 5-year funding of more than $2.2 billion.
                  The role of NIH grants management staff, including CTSA program
                  staff, is to oversee awardees to ensure that they follow all applicable
                  Federal regulations, departmental and agency policies, and terms and
                  conditions of awards. CTSA program staff must ensure that awardees
                  submit annual progress reports and financial status reports and must
                  determine whether awardee progress remains satisfactory before
                  awardees receive continued funding.
                  NIH uses three funding mechanisms for research awards: grants,
                  cooperative agreements, and contracts. The CTSA program uses
                  cooperative agreements. Under cooperative agreements, NIH staff
                  provide assistance to awardees above and beyond the levels usually
                  required for program stewardship of grants. This level of stewardship is
                  known as substantial involvement. CTSA program staff assign NIH
                  Project Scientists to awardees to provide substantial involvement
                  through technical assistance, advice, and coordination. Names of
                  substantially involved staff and an annual summary of staff
                  involvement should be documented in the official files.

OEI-07-09-00300   N I H A D M I N I S T R AT I O N O F T H E C L I N I C A L A N D T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   i
E   X   E C     U T   I     V      E           S      U M            M      A      R Y


                          We reviewed files for the 38 CTSA cooperative agreements awarded in
                          fiscal years (FY) 2006 through 2008 to determine whether CTSA
                          program staff administered the program in compliance with Federal
                          requirements and HHS and NIH policies and whether they provided
                          substantial involvement to awardees.


                          FINDINGS
                          Despite completing basic checklists, CTSA program staff did not
                          document awardees’ progress in compliance with NIH policy. For
                          only 1 of 38 awardees, CTSA program staff documented a comparison of
                          accomplishments to research objectives. Although reviews for six
                          awardees’ files mentioned an inability to fulfill goals, only one file
                          included a note from CTSA program staff regarding resolution.
                          Similarly, plans for the upcoming year were noted in only one file.
                          Awardees were frequently late in submitting required reports; CTSA
                          program staff did not take action to address timeliness. Most
                          progress reports and one-half of financial status reports were late, yet
                          the CTSA files contained no evidence that staff tried to obtain
                          delinquent reports. Also, despite widespread report delinquency, no
                          enforcement actions were documented in official files.
                          Official CTSA files were not maintained in accordance with HHS
                          policy. Official CTSA files were incomplete, were not current, were
                          often not separated by budget period, and did not enable third-party
                          review.
                          No files contained evidence that CTSA program staff provided
                          substantial involvement to awardees in accordance with Federal
                          regulations and NIH policy. The CTSA files contained no evidence of
                          expected substantial involvement by Project Scientists. Additionally,
                          the files contained no other evidence of substantial involvement by any
                          CTSA program staff beyond usual program stewardship activities.


                          RECOMMENDATIONS
                          For better oversight of the CTSA program, we recommend that NIH
                          ensure that CTSA program staff:
                          Document their monitoring of awardee progress. NIH must ensure that
                          staff document awardee accomplishments toward meeting project goals;
                          reasons for not meeting project goals, if applicable; and plans for activities
                          during the coming year.

    OEI-07-09-00300       N I H A D M I N I S T R AT I O N O F T H E C L I N I C A L A N D T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   ii
E   X   E C     U T   I     V      E           S      U M            M      A      R Y


                          Ensure timely submission of required reports. NIH should ensure that
                          staff document correspondence with awardees as they act to obtain
                          delinquent progress reports and financial status reports.
                          Maintain official files in accordance with HHS policy. NIH must
                          establish a single comprehensive filing system in which files are
                          complete, current, easy to identify, easy to access, and separated by
                          budget period. This would promote a coordinated approach to oversight
                          for NIH staff and third-party reviewers.
                          Provide substantial involvement to CTSA awardees. At a minimum,
                          staff must clearly list the Project Scientists involved and include the
                          annual summary of involvement within the award files.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          NIH concurred with our recommendations. NIH stated that it (1) will
                          issue specific guidance on documentation requirements for monitoring
                          awardee progress and obtaining delinquent reports, (2) has already
                          implemented the recommendation to maintain official files in
                          accordance with HHS policy, and (3) will work with NCRR to revise
                          its cooperative agreement terms of award.




    OEI-07-09-00300       N I H A D M I N I S T R AT I O N O F T H E C L I N I C A L A N D T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   iii
   T A B L E                        O F                 C O N T E N T S



                  EXECUTIVE SUMMARY ..................................... i



                  INTRODUCTION............................................ 1



                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                             Despite completing basic checklists, CTSA program staff
                             did not document awardees’ progress in compliance
                             with NIH policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                             Awardees were frequently late in submitting required
                             reports; CTSA program staff did not take action to
                             address timeliness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                             Official CTSA files were not maintained in accordance with HHS
                             policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                             No files contained evidence that CTSA program staff provided
                             substantial involvement to awardees in accordance with Federal
                             regulations and NIH policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                             Agency Comments and Office of Inspector General Response . . . 18



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                             A: Responsibilities of Clinical and Translational Science Award
                             Program Staff. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                             B: Example of Awardee Goals and Milestones . . . . . . . . . . . . . . . 20

                             C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




OEI-07-09-00300           N I H A D M I N I S T R AT I O N O F T H E C L I N I C A L A N D T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   i
   I N T R O D U C T I O N




                  OBJECTIVES
                          1. To determine the extent to which the National Institutes of
                             Health (NIH) administered the Clinical and Translational
                             Science Award (CTSA) program in accordance with Federal
                             regulations and Department of Health and Human Services
                             (HHS) and NIH policies for:
                                           •         monitoring awardee progress in achieving the goals and
                                                     milestones of the program (awardee progress),
                                           •         ensuring timely submission of reports, and
                                           •         maintaining official files.
                          2. To determine whether CTSA program staff provided substantial
                             involvement to awardees in accordance with Federal regulations
                             and HHS and NIH policies.


                  BACKGROUND
                  The National Center for Research Resources (NCRR) is one of the
                  funding institutes or centers within NIH.1 NCRR established the CTSA
                  program to provide external research awards for scientists to transform
                  basic research and patient observations into clinical practice and new
                  treatments. 2 As of March 2011, NCRR had awarded CTSA research
                  awards to 55 domestic graduate schools, with planned 5-year funding of
                  more than $2.2 billion. 3
                  Previous Office of Inspector General (OIG) reviews of award programs
                  administered by NIH and other agencies highlighted opportunities for
                  improvements in the oversight of grantee funds and compliance. 4


                        1 NIH, Institutes, Centers, and Offices. Accessed at http://www.nih.gov on April 25,

                      2011. See also NIH, Scientific Management Review Board Report on Translational
                      Medicine and Therapeutics. Accessed at http://smrb.od.nih.gov on April 12, 2011.
                          2 NCRR, Clinical and Translational Science Awards Fact Sheet. Accessed at
                      http://www.ncrr.nih.gov on August 26, 2010. NIH, “Request for Applications RM-06-002:
                      Institutional Clinical and Translational Science Award.”
                          3 NCRR, Clinical and Translational Science Awards and Five-Year Funding Amounts
                      by Institution. Accessed at http://www.ncrr.nih.gov on March 30, 2011.
                          4 OIG,       National Cancer Institute’s Monitoring of Research Project Grants
                      (OEI-07-07-00120) and Agency for Healthcare Research and Quality: Monitoring Patient
                      Safety Grants (OEI-07-04-00460).



OEI-07-09-00300   N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   1
I   N T    R O        D   U       C T           I     O      N


                              Award oversight is a top management challenge for the Department of
                              Health and Human Services (HHS), as award programs are at risk of
                              fraud, waste, abuse, and ineffectiveness without proper controls to
                              ensure the appropriate use of Federal funds. 5 Moreover, expansion in
                              the number and size of awards, such as that occurring in the CTSA
                              program, will magnify oversight vulnerabilities. 6
                              Federal Requirements and Departmental Guidance for Award Administration
                              Federal regulations establish uniform administrative requirements
                              governing HHS awards to institutions of higher education, hospitals,
                              and other nonprofit organizations. 7 Guidance in implementing these
                              regulatory requirements is contained in the HHS Grants Policy
                              Directives (GPD), which apply to all organizational levels within HHS;
                              the NIH Policy Manual, which applies to internal operations of NIH;
                              and the CTSA Consortium Governance Manual, which is specific to the
                              CTSA program.
                              The role of NIH grants management staff, including CTSA program
                              staff, 8 is to oversee awards to ensure that awardees use funding
                              properly and prudently and follow all applicable laws, regulations, and
                              policies.9 Grants management staff are responsible for usual program
                              stewardship, including the business administration of award programs
                              and resolving questions regarding the applicability of departmental and
                              agency policies.10
                              If awardees materially fail to comply with the terms and conditions of
                              an award, the Grants Management Officer may take one or more of the
                              following enforcement actions:
                              •       temporarily withhold payments pending the correction of
                                      deficiencies,
                              •       disallow funds on the cost of the activity not in compliance,

                                     5 OIG, FY 2010 Top Management and Performance Challenges Identified by the Office

                                  of the Inspector General. Accessed at http://oig.hhs.gov on March 30, 2011.
                                      6 Ibid.
                                      7 45 CFR pt.74.
                                      8 For the purposes of this report, CTSA program staff are the staff responsible for both
                                  the business and programmatic aspects of the CTSA awards, including Grants
                                  Management Officers, Grants Management Specialists, Program Officials, and Project
                                  Scientists.
                                     9 See Appendix A for a listing of specific responsibilities of grants management staff,

                                  including Grants Management Officer business responsibilities and Program Official
                                  programmatic responsibilities.
                                      10 HHS, GPD, pt. 1.02; NIH,                    Policy Manual, ch. 54444.



    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   2
I   N T    R O        D   U       C T           I     O      N


                              •       suspend or terminate the current award, and/or
                              •       withhold further awards. 11
                              Ensuring Submission of Required Reports
                              All NIH awardees 12 must submit annual performance reports and
                              financial status reports (FSR).13 The Grants Management Officer
                              should not release continued funding until required reports are
                              submitted. 14
                              For many NIH research awards, including CTSA awards, annual
                              progress reports are due 2 months before the beginning of the next
                              budget period.15 Awardees must provide a comparison of the
                              accomplishments during the progress period to the goals and milestones
                              and, if applicable, reasons that the goals and milestones were not met.
                              If an awardee is delinquent in submitting a progress report, the Grants
                              Management Officer must:
                              •       send an initial request letter to the awardee 30 days beyond the
                                      due date,
                              •       send a second request letter to an official at the awardee
                                      institution 60 days beyond the due date,
                              •       send a third request letter to the head of the awardee institution
                                      90 days beyond the due date, and
                              •       refer the matter to the designated NIH official if there is not an
                                      acceptable response 120 days beyond the due date. 16
                              All NIH awardees, including CTSA awardees, must submit an FSR no
                              later than 90 days after the close of the budget period. 17 The FSR
                              shows the status of awarded funds for that budget period. When FSRs
                              are 4 months overdue (i.e., when 7 months have elapsed since the end of
                              the budget period), the Grants Management Officer must:


                                      11 45 CFR § 74.62.
                                      12 For the purposes of this report, the term “all awardees” refers to those subject to the
                                  Streamlined Noncompeting Award Process, including CTSA awardees.
                                    13 45 CFR §§ 74.51 and 74.52. NIH refers to the annual performance reports as
                                  “progress reports.” NIH, Grants Policy Statement, pt. 1.
                                     14 NIH, Policy Manual, ch. 55806. CTSA awards may include continued funding for
                                  4 years after the initial award year, for a total of 5 years. NIH, “Request for Applications
                                  RM-06-002: Institutional Clinical and Translational Science Award.”
                                    15 Office of Management and Budget, U.S. Department of Health and Human Services

                                  Public Health Service Non-Competing Grant Progress Report (PHS [Public Health
                                  Service] 2590). Accessed at http://grants.nih.gov on December 6, 2010.
                                      16 NIH, Policy Manual, ch. 55806.
                                      17 45 CFR § 74.52; NIHGPS, pt. 2, pt. II-87.




    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   3
I   N T    R O        D   U       C T           I     O      N


                              •       send a request letter to the awardee requesting submission of the
                                      report within 30 days,
                              •       send a letter to the head of the awardee institution if there is no
                                      reply to the initial request within 30 days (i.e., 5 months beyond
                                      the due date),
                              •       not make continuation awards until required reports have been
                                      received, and
                              •       refer the matter to the designated NIH official if an awardee
                                      institution is consistently delinquent in submitting FSRs. 18
                              Monitoring Awardee Progress
                              Grants management staff must identify programmatic and financial
                              deficiencies, if any, throughout the award period.19 This includes
                              reviewing the annual progress reports to ensure that awardees achieve
                              the goals and milestones of the program. Staff must also review FSRs
                              to monitor awardees’ expenditures and compliance with financial
                              reporting requirements. When reviewing awardee progress, grants
                              management staff must include, at a minimum, the following:
                              •       evidence of accomplishments toward meeting project goals,
                              •       reasons for not meeting project goals (if applicable), and
                              •       plans for activities during the next year.20
                              Grants management staff use award checklists to document their
                              review of annual progress as reflected in the Award Worksheet
                              Reports. 21
                              Official File Maintenance
                              As part of a coordinated approach to postaward administration,
                              awarding offices, such as NCRR, must create and maintain files that
                              enable a third party (e.g., auditor or other reviewer) to follow the life of
                              the award, from initiation through closeout.22 A third-party reviewer
                              should be able to view information regarding decisions made and
                              actions taken throughout the entire award. An individual official file


                                      18 NIH,        Policy Manual, ch. 55806. The Manual does not define the term “consistently
                                  delinquent.”
                                      19 HHS, GPD, pt. 3.06; NIH, Policy                      Manual, ch. 54815 and 54444.
                                      20 NIH, Policy Manual, ch. 55808.
                                    21 NCRR staff use the same Award Worksheet Reports to document review of each

                                  awardee’s annual progress report and FSR. NIH, Grants Management User Guide,
                                  System Version 2.16.0.0. Accessed at http://era.nih.gov on August 11, 2010.
                                      22 HHS,         GPD, pt. 3.06.



    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   4
I   N T    R O        D   U       C T           I     O      N


                              must be created for each award and must contain the following
                              documentation:
                              •       signed copies of applications and all documentation that supports
                                      the review and approval of the applications;
                              •       Notices of Award;
                              •       performance and financial reports and evidence of review and
                                      acceptance by the awarding agency;
                              •       site visit reports, records of telephone calls, and documents to
                                      support postaward technical assistance provided; and
                              •       documentation related to enforcement actions, including any
                                      award appeals. 23
                              Official file contents must be current, easy to identify, easy to access,
                              and separated by budget period to the extent possible. 24 Official files
                              must also include hardcopies of electronically created or transmitted
                              documents, including email, or be referenced to a separate file or
                              repository. 25
                              Cooperative Agreement Award Mechanism
                              NIH uses three funding mechanisms for research awards: grants,
                              cooperative agreements, and contracts. The CTSA program uses the
                              cooperative agreement award mechanism. Federal requirements for
                              award administration are generally the same for grants and cooperative
                              agreements. Under cooperative agreements, however, NIH facilitates
                              the awardees’ performance of the funded activity in a “partnership”
                              role.26
                              In such a partnership, NIH staff provide assistance to awardees above
                              and beyond the levels usually required for program stewardship of
                              grants, but without dominating the relationship. 27 This increased NIH
                              staff involvement with awardees is known as substantial involvement. 28
                              The NIH Policy Manual states that substantial involvement could
                              include:



                                      23 HHS,         GPD, pt. 3.06; NIH, Policy Manual, ch. 55806.
                                      24 HHS,         GPD, pt. 3.06.
                                      25 Ibid.
                                      26 NIH,        Policy Manual, chs.1820 and 54815.
                                      27 Ibid.
                                      28 The Federal Grant and Cooperative Agreement Act of 1977, 31 U.S.C. § 6305; HHS,

                                  GPD, pts. 1.02 and 2.02.



    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   5
I   N T    R O        D   U       C T           I     O      N


                              •       cooperation, coordination, or participation in assisting awardees
                                      in performing project activities (e.g., development of research
                                      protocols; data collection, analyses, and interpretations; or
                                      reestablishment of objectives during the course of a project);
                              •       an option to halt a project activity if technical performance
                                      requirements are not met;
                              •       review or approval of one stage of a project before work may begin
                                      on a subsequent stage during a current approved project period;
                              •       assistance with, or approval of, the selection of contractors or
                                      subawardees and of key project personnel other than principal
                                      investigators of projects or subprojects;
                              •       technical monitoring to permit specified directions of the work,
                                      including approval of changes in experimental approaches; and
                              •       participation on committees or in other functions responsible for
                                      helping to guide the course of long-term projects or activities. 29
                              The NIH Policy Manual states that the names of substantially involved
                              staff and an annual summary of staff involvement in the award must be
                              documented in the award files. 30
                              For the CTSA program, the Governance Manual indicates that at least
                              one Project Scientist is assigned to each CTSA awardee to provide
                              substantial involvement through technical assistance, advice, and
                              coordination. 31 Project Scientists are not responsible for usual program
                              stewardship. Instead, Project Scientists are responsible for reviewing
                              and commenting on critical stages in implementation of the awards and
                              for promoting collaboration among awardees. 32 See Appendix A for a
                              listing of all responsibilities for Project Scientists (as well as the
                              responsibilities of grants management staff).


                              METHODOLOGY
                              Scope
                              This evaluation reviewed NIH’s administration of the 38 CTSA research
                              awards funded in fiscal years (FY) 2006 through 2008. 33 NIH awarded
                              $606 million to these awardees during our 3-year review period. Since


                                      29 NIH,        Policy Manual, ch. 1820.
                                      30 NIH,        Policy Manual, ch. 54815.
                                      31 CTSA Consortium, Governance Manual, Working Document, Version 2008.8.14.
                                  Accessed at http://www.ctsaweb.org on June 22, 2009.
                                      32 Ibid.
                                      33 The required reports for these awards were due during FYs 2007 to 2009.




    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   6
I   N T    R O        D   U       C T           I     O      N


                              all awardees requested 5 years of support, a total of 74 budget periods
                              were reviewed for the 38 cooperative agreements during our review
                              period—12 awardees were in the third year of operation (36 budget
                              periods), 12 were in the second year (24 budget periods), and 14 were in
                              the first year (14 budget periods). See Table 1 for a description of the
                              number of awards and budget periods by award year.

                              Table 1: CTSA Award Summary

                                                                      Budget                                                          Total
                                                                                                  Number of
                                Fiscal Year                          Periods                                                        Budget
                                                                                                  Awardees
                                                                    Reviewed                                                        Periods
                                2006                                             3                                 12                          36
                                2007                                             2                                 12                          24
                                2008                                             1                                 14                          14
                                                                            Total                                  38                          74
                              Source: OIG analysis of CTSA files, 2009.



                              We did not review the research or scientific outcomes described in the
                              progress reports or the appropriateness of the information reported in
                              FSRs. However, we did determine the extent to which CTSA program
                              staff documented their own review of research or scientific outcomes
                              when evaluating awardee progress.
                              Data Sources
                              NCRR staff scanned their official files for the 38 CTSA awards into an
                              electronic format for our review. NCRR staff stated that the electronic
                              files contained both the scanned versions of the paper files and
                              supplemental information from NIH’s electronic grants management
                              system, Information for Management, Planning, Analysis, and
                              Coordination (IMPAC II). For the purposes of our review, we refer to
                              these scanned files as the official files.
                              If documents were missing from the official files, we consulted two
                              additional sources to complete our review: IMPAC II via direct access
                              and electronic copies of the Award Worksheet Reports not present in
                              IMPAC II.
                              Data Collection and Analysis
                              We reviewed the following documents when present in the CTSA files,
                              regardless of data source:
                              •       CTSA applications;

    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   7
I   N T    R O        D   U       C T           I     O      N


                              •       Award Worksheet Reports;
                              •       Notices of Award;
                              •       progress reports;
                              •       FSRs; and
                              •       any documentation of postaward assistance in emails, telephone
                                      records, reports, or other documents.
                              We developed a checklist to conduct our review of these files to
                              determine compliance with Federal regulations and HHS and NIH
                              policies. We determined whether any CTSA program staff performed
                              the following activities, regardless of which staff were charged with
                              responsibility for each activity:
                              Ensuring Submission of Required Reports. We reviewed the CTSA files to
                              determine whether required progress reports:
                              •       were submitted 2 months before the beginning of the next budget
                                      period;
                              •       contained a self-reported comparison of accomplishments with
                                      awardee goals and milestones 34 established for the budget period;
                                      and
                              •       explained the reasons that goals and milestones were not met, if
                                      applicable.
                              We determined whether required FSRs were received within 90 days
                              after the close of the budget period and whether they reflected the
                              status of funds. We determined whether CTSA program staff ensured
                              the submission of required progress reports and FSRs through
                              correspondence with awardees to obtain delinquent reports and
                              enforcement actions in the event of continued delinquency.
                              Monitoring Awardee Progress. We reviewed Award Worksheet Reports to
                              determine whether CTSA program staff reviewed annual awardee
                              progress for continued funding. Specifically, we determined whether
                              the following were documented:
                              •       awardee accomplishments toward meeting project goals;
                              •       reasons for not meeting project goals, if applicable; and
                              •       plans for activities during the coming year.
                              Award Worksheet Reports contain a yes/no option that enables grants
                              management staff to indicate whether awardee progress was


                                      34 See Appendix B for an example of the goals and milestones section of an application.




    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   8
I   N T    R O        D   U       C T           I     O      N


                              satisfactory. The Award Worksheet Reports also contain a narrative
                              field for staff comments.
                              Maintaining Official Files. We determined whether official files enabled a
                              third party to follow the life of CTSA awards. Specifically, we
                              determined whether file contents were current, easy to identify, easy to
                              access, and separated by budget period. We also determined whether
                              files were complete, containing the following documentation specified in
                              HHS and NIH policy:
                              •       signed copies of applications and documentation that supports the
                                      review and approval of the applications (e.g., Award Worksheet
                                      Reports);
                              •       Notices of Award;
                              •       progress and financial reports and evidence of review and
                                      acceptance by the awarding agency;
                              •       site visit reports, records of telephone calls, and documents to
                                      support postaward technical assistance provided; and
                              •       documentation related to enforcement actions, including any
                                      award appeals.
                              Providing Substantial Involvement. We reviewed the CTSA files for
                              evidence of substantial involvement by CTSA program staff, including
                              technical or scientific assistance from Project Scientists regarding
                              program implementation 35 and any other assistance beyond usual
                              program stewardship. We determined whether files contained the
                              names of substantially involved staff and the annual summaries of staff
                              involvement specified in agency policy.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




                                    35 See Appendix A for information from the CTSA Governance Manual regarding

                                  Project Scientists’ responsibilities with regard to programmatic involvement.



    OEI-07-09-00300           N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   9
   F I N D I N G S

Despite completing basic checklists, CTSA              We reviewed Award Worksheet
program staff did not document awardees’               Reports to determine whether
   progress in compliance with NIH policy              CTSA program staff documented
                                                       the following when reviewing
                  awardees’ progress: awardee accomplishments toward meeting project
                  goals; reasons for not meeting goals, if applicable; and plans for
                  activities during the coming year. For all but one file, a simple “yes/no”
                  checklist item on these reports indicated that progress was satisfactory
                  each year. However, CTSA program staff largely failed to document the
                  support for their answers as specified in NIH policy.
                  CTSA program staff documented their comparison of awardee
                  accomplishments from the prior year to project goals for only 1 of the
                  38 files. For two other files, the section of the application outlining the
                  goals and milestones was missing altogether, which prevented annual
                  comparisons of progress to milestones. For the remaining 35 files, the
                  goals and milestones sections of the application were present; however,
                  comparisons to annual accomplishments were not documented.
                  In the 38 files, 8 Award Worksheet Reports noted awardees’ inability to
                  fulfill project goals. CTSA program staff attributed most of these
                  deficiencies to budget cuts, although one file indicated that the goal was
                  too ambitious, and another did not provide a reason. Moreover, only one
                  of these six files contained a plan for resolution. In this case, the
                  awardee was producing less than other awardees and developed an
                  advisory committee to address this concern. CTSA program staff noted
                  that this strategy was likely to bring this awardee’s production in line
                  with that of the other awardees.
                  Similarly, CTSA program staff noted only one awardee’s plans for the
                  upcoming year. In this case, the Award Worksheet Report narrative
                  included a copy of an email from the awardee that described activities
                  that occurred after the submission of the annual progress report and
                  plans for the upcoming project period.




OEI-07-09-00300   N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   10
F   I   N   D I       N G     S



         Awardees were frequently late in submitting                Awardees commonly
        required reports; CTSA program staff did not                submitted progress reports
                                                                    and FSRs late. Despite
                    take action to address timeliness
                                                                    frequent delinquencies in the
                            submission of required reports, CTSA program staff did not take action
                            to address the noncompliance.
                            Most progress reports and half of FSRs were late
                            During our study period, 66 of the 74 (89 percent) progress reports were
                            late. Progress reports were late an average of 12 days. Table 2
                            summarizes the number of progress reports received late during each
                            year of our review period.

                            Table 2: Timeliness of Progress Reports Submitted From 2007 to 2009

                                                        Total              Progress                  Number                  Percentage
                                Year                   CTSA                 Reports                 Received                   Received
                                                      Awards               Received                     Late                       Late

                                2007                            12                  12                          11                       92%

                                2008                            24                  24                          20                       83%

                                2009                            38                  38                          35                       92%

                                  Total                         74                  74                          66                       89%
                            Source: OIG analysis of CTSA files, 2010.



                            During our study period, 36 of 74 FSRs (49 percent) were late. FSRs
                            were late an average of 113 days. One report was not submitted within
                            the period of our review. Table 3 summarizes the number of FSRs
                            received late during each year of our review period.

                            Table 3: Timeliness of FSRs Submitted From 2007 to 2009

                                                       Total                                         Number                 Percentage
                                                                             FSRs
                               Year                   CTSA                                          Received                  Received
                                                                          Received
                                                     Awards                                             Late                      Late

                               2007                            12                   12                           6                      50%

                               2008                            24                   24                         13                       54%

                               2009                            38                   37                         17                       45%

                                  Total                        74                   73                         36                       49%
                            Source: OIG analysis of CTSA files, 2010.




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   11
F   I   N   D I       N G     S


                            Staff did not ensure timely submission of required reports
                            The NIH Policy Manual instructs CTSA program staff to document
                            correspondence with awardees to obtain delinquent reports; however, no
                            such documentation was present in the files.
                            NIH policy requires CTSA program staff to send notices to awardees
                            regarding delinquent reports when progress reports are 30, 60, 90, and
                            120 days late and when FSRs are 4 and 5 months late. None of the files
                            contained these reminder notices. However, files contained 8 progress
                            reports that were more than 30 days late; 4 of those were more than
                            60 days late. 36 Similarly, files contained 11 FSRs that were more than
                            4 months late and 9 of those FSRs were more than 5 months late.
                            For all of the research awards, only one file contained documentation of
                            an instance when CTSA program staff contacted an awardee about a
                            late report, but this request was late and therefore was not in
                            compliance with the NIH Policy Manual. To illustrate, the CTSA
                            program staff member emailed the awardee to request an FSR that was
                            due 9 months earlier. The awardee finally submitted the FSR to CTSA
                            program staff 3 months after the request, nearly a year after the
                            original due date.
                            NIH policy also instructs CTSA program staff to document enforcement
                            actions taken to address continued delinquency. Despite widespread
                            report delinquency, no enforcement actions were documented. For
                            example, one awardee’s FSRs were 67 days late in 2007, 351 days late
                            in 2008, and 184 days late in 2009. This awardee’s progress reports
                            were also late each year. Even though these reports were repeatedly
                            late, no evidence in the files documented any of the enforcement actions
                            that CTSA program staff could have taken to address this awardee’s
                            violation of the terms and conditions of award.




                                    36 None of the progress reports were more than 90 days late.




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   12
F   I   N   D I       N G     S



        Official CTSA files were not maintained in                 Official files must be complete,
                     accordance with HHS policy                    current, easy to identify, easy to
                                                                   access, and separated by budget
                            period. Official award files must also enable third-party review in order
                            to provide a coordinated approach to award oversight. Official CTSA
                            files maintained by NCRR did not meet these criteria.
                            NCRR staff stated that the official files for the CTSA awards contained
                            scanned versions of their paper files and supplemental information from
                            IMPAC II. However, at least 1 required document was missing from the
                            official file for each of the 38 awards. Table 4 provides a summary of
                            the missing documents.
                            Table 4: Summary of Documents Missing From Official CTSA Files
                                                                                                                                                        Number Missing
                                                                    Number of
                                  Award Year                                                                               Document                    From Official File
                                                                      Awards
                                                                                                                                                                Source

                                                                                                                 Entire application                                     7
                                  Prior to Award                               38
                                                                                            Implementation and Milestones
                                                                                                                                                                        21
                                                                                                  eaSection of application

                                                                                                                                     FSR                                6

                                                                                                                   Progress Report                                      17
                                  Year 1                                       38
                                                                                                     Award Worksheet Report                                             16

                                                                                                                    Notice of Award                                     12

                                                                                                                                     FSR                                8

                                                                                                                   Progress Report                                      15
                                  Year 2                                       24
                                                                                                     Award Worksheet Report                                             8

                                                                                                                    Notice of Award                                     12

                                                                                                                                     FSR                                5

                                                                                                                   Progress Report                                      4
                                  Year 3                                       12
                                                                                                     Award Worksheet Report                                             1

                                                                                                                    Notice of Award                                     6
                            Source: OIG analysis of official CTSA files, 2009.




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M           13
F    I      N   D I     N G        S



                                  Official CTSA files were also not current. All CTSA awards were into
                                  the second quarter of a new budget period at the time of our request,
                                  and for this reason, the Notice of Award for the new budget period
                                  should have been filed by that time. However, none of the files
                                  contained information from that budget period (e.g., Notices of Award,
                                  site visit reports, records of telephone calls, or emails).
                                  Official CTSA files were often not separated by budget period. Files
                                  were not consistently separated by budget period for 16 of the 38 CTSA
                                  awards. Files for 13 awards combined 2 or more years into 1 section,
                                  while files for the other 3 awards divided single award years into
                                  multiple small sections.
                                  Additionally, official CTSA files do not enable third-party review.
                                  Because the official files maintained by NCRR are incomplete, a
                                  third-party review would be inaccurate if it relied solely on these files.
                                  To complete a comprehensive review of CTSA files, we consulted two
                                  additional file sources. Table 5 summarizes the file sources used and
                                  the extent to which they complied with Federal policy from a third-party
                                  perspective.

Table 5: Extent to Which File Sources Met Requirements of Federal Policies for File Maintenance
                                                                                                                Files Are                   Files Are                Files Are
    Access                                                     Files Are            Files Are
                      Data Source                                                                                Easy to                     Easy to              Separated by
    Date                                                       Complete              Current
                                                                                                                 Identify                    Access              Budget Period

    October
                      Official files                                      No                   No                          No                        Yes            Sometimes
    2009

    March
    2010              IMPAC II                                            No                   Yes                       Yes                          No                  Yes


    April             Electronic Award
                                                                          No                   Yes                       Yes                          No                  Yes
    2010              Worksheet Reports

Source: OIG analysis of CTSA files, 2010.




                                  No single file source met all the requirements of the Federal policies for
                                  maintaining files. IMPAC II contained all documents missing from the
                                  official file except the Award Worksheet Reports. NCRR could not
                                  locate four Award Worksheet Reports electronically; however, these
                                  reports were present in the official files for the respective awards.




     OEI-07-09-00300              N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M           14
 F   I   N   D I       N G     S


                                                                    According to Federal statute,
No files contained evidence that CTSA program
                                                                    cooperative agreements
       staff provided substantial involvement to
                                                                    necessitate substantial
           awardees in accordance with Federal                      involvement 37 by the awarding
                      regulations and NIH policy                    agency in partnership with the
                                                                    awardee throughout the life of the
                             award. NIH policy states that the names of substantially involved staff
                             and annual summaries of substantial staff involvement in the
                             cooperative agreements must be documented in the files. According to
                             the CTSA Consortium Governance Manual, Project Scientists are
                             responsible for providing substantial involvement for CTSA cooperative
                             agreements. However, file documentation contained no evidence of this
                             type of involvement by Project Scientists or any other CTSA staff.

                             The CTSA files contained no evidence of substantial Project Scientist
                             involvement
                             The award files contained no documentation of technical assistance
                             from Project Scientists regarding program implementation for any of
                             the cooperative agreements. Additionally, files had no evidence that
                             Project Scientists did any of the following:
                             •       assisted awardees in performing project activities,
                             •       halted a project activity if technical performance requirements
                                     were not met,
                             •       reviewed or approved stages of a project,
                             •       approved the selection of contractors or subawardees or key
                                     project personnel,
                             •       conducted technical monitoring to permit specified directions of
                                     the work, or
                             •       participated on committees.
                             None of the files listed names of Project Scientists, and only two files
                             contained any mention of a Project Scientist. In one instance, the
                             Project Scientist emailed his intent to attend a teleconference with
                             CTSA program staff and the awardee regarding restructuring of the
                             CTSA program. However, the file contained no documentation
                             explaining what, if any, technical advice the Project Scientist
                             contributed during that meeting or documentation of any other


                                   37 Substantial involvement includes activities beyond those usually required for

                                 program stewardship.



     OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   15
F   I   N   D I       N G     S


                            involvement. In the other instance, a Program Official with the title
                            “Scientific Project Officer” in her email signature emailed the Grants
                            Management Specialist to inquire about the status of an awardee’s
                            request to purchase equipment.
                            The CTSA files contained no other evidence of substantial involvement
                            We searched for documentation of any involvement beyond usual
                            program stewardship by CTSA program staff. A checklist item on
                            Award Worksheet Reports indicates whether the annual summaries of
                            substantial staff involvement in the awards were present in the file.
                            Despite the fact that checklists for all but one of the files indicated that
                            these summaries were present for at least 1 year of the project, they
                            were not in the files.
                            In 11 of the files, the annual summary consisted of a brief note from
                            CTSA program staff stating that only usual program stewardship was
                            provided or describing usual program stewardship activities, such as
                            correspondence with awardees. In two other files, the brief note from
                            the CTSA program staff instead described the awardees’ level of
                            involvement rather than NIH staff involvement. For the rest of the
                            files, such notes were not provided.
                            Throughout our review of the files, we were able to identify only
                            documentation from CTSA program staff related to usual program
                            stewardship, such as correction of financial information. Some of the
                            documentation of usual program stewardship that had the potential to
                            include evidence of substantial involvement was not present. For
                            example, a few of the files indicated that site visits occurred, which is
                            considered usual program stewardship. However, these same files
                            contained no site visit reports. Consequently, we could not determine
                            whether CTSA program staff provided involvement beyond usual
                            program stewardship during these site visits.




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   16
   R E C O M M E N D A T I O N S

                  Our review of files for FYs 2006 to 2008 demonstrated that
                  administration of the CTSA program was noncompliant with the
                  following: monitoring awardee progress, ensuring timely submission of
                  required reports, and maintaining official files. Also, no files contained
                  evidence that CTSA program staff provided substantial involvement to
                  awardees in accordance with the cooperative agreement funding
                  mechanism.
                  For better oversight of the CTSA program, we recommend that NIH
                  ensure that CTSA program staff:
                  Document Their Monitoring of Awardee Progress
                  When staff review awardee progress, NIH must ensure that they
                  document awardee accomplishments toward meeting project goals;
                  reasons for not meeting project goals, if applicable; and plans for
                  activities during the coming year. To assist staff in documenting these
                  elements of annual progress, NIH may consider revising the Award
                  Worksheet Report to require a narrative related to awardee
                  accomplishments. NIH also may consider formally tracking awardee
                  goals and milestones from the time that they are submitted in the
                  application through the life of the award, which would facilitate a
                  streamlined comparison of accomplishments to goals and milestones
                  when evaluating annual awardee progress. This could be accomplished
                  through IMPAC II or another mechanism.
                  Ensure Timely Submission of Required Reports
                  NIH should ensure that staff document correspondence with awardees
                  as they act to obtain delinquent reports.
                  Maintain Official Files in Accordance With HHS Policy
                  NIH must establish a single comprehensive filing system for the CTSA
                  program in which files are complete, current, easy to identify, easy to
                  access , and separated by budget period. This would promote a
                  coordinated approach to award oversight by better enabling third-party
                  review.
                  Provide Substantial Involvement to CTSA Awardees
                  NIH involvement may include collaboration, participation, and/or
                  intervention in cooperative agreement activities. At a minimum, staff
                  must clearly list within the award files the Project Scientists involved
                  and include the annual summary of involvement.




OEI-07-09-00300   N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   17
R   E C     O    M    M   E     N D            A T            I   O     N   S



                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          NIH concurred with our recommendations. In response to our first and
                          second recommendations, NIH stated that it will issue specific guidance
                          on documentation requirements for monitoring awardee progress and
                          obtaining delinquent reports. NIH stated that it has already
                          implemented our third recommendation by using electronic grant files.
                          In response to our fourth recommendation, NIH stated that NCRR will
                          revise its cooperative agreement terms of award to identify the names
                          and titles of program staff who will provide substantial involvement as
                          CTSA Project Collaborators. We did not make any changes to the report
                          based on NIH’s comments. For the full text of NIH’s comments, see
                          Appendix C.




    OEI-07-09-00300       N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   18
               A P P E N D I X                                          A

                  Responsibilities of Clinical and Translational Science Awards Program Staff




Source: National Institutes of Health, CTSA Consortium Governance Manual, version 2008.08.14; Department of Health and Human Services,
Grants Policy Directives, pt. 1.01.


Note on acronyms used in the table: CTSA is Clinical and Translational Science Award. NCRR is the National Center for Research Resources
(NCRR). NIH is the National Institutes of Health.




          OEI-07-09-00300             N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   19
     A P P E N D I X                                           B

                             Example of Awardee Goals and Milestones*




Source: Excerpts from one Clinical and Translational Science Award application on file, accessed by the Office of Inspector General in
October 2009.
Note: Potentially identifying information (e.g., names of centers, studies, and committees) has been redacted.
Note on acronym used in the table: IRB is Institutional Review Board.
* Shaded areas under Years 1–5 indicate the quarter(s) in which the awardee intends to complete the listed activity.




 OEI-07-09-00300             N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   20
..      APPENDIX                               C

Agency Comments


                 DDAllTMENT Of BIALTH .. HUMAN SlRVlCES                                 PUbliC Hellth Service


                                                                                        NedonellnSlItute$ 01 HealU1
                                                                                        8ethesda, Maryl.llnd 204!192




           TO:           Stuart Wright
                         Deputy Inspector Genem! for Inspection and Evaluations, OIG. HHS

           FROM:         Direetor, NIH

           SUBJECT:      NIH Comments to the Draft Office of Inspector General Report. NlR
                         Administration ofthe Clinical and Trans/aliella} Science Awards Program
                         (OEI-07..Q9..00300)


           Attached are the National Institutes of Health's comments on the draft 010 report entitltd,
           NIH Administration ofthe Clinical and TransJalianol Science Awards Program (OEl'()7·
           09-0(300).

           We appreciate the opportunity to review and comment on this important topic. Should you
           have questions or concerns regarding our comments, please contact Meredith Stein in the
           Office of Management Assessment at 301-402·8482.


                                                           /S/
                                                Francis S. Collins, M.D., Ph.D.

           Attachment




    OEI·07·09·00300        NIH ADMINISTRATION OF THE CLINICAL AND TRANSLATIONAL SCIENCE AWARDS PROGRAM                 21
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   22
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   23
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   24
    A    P P       E       N    D I       X       ~       C




A       P P    E       N       D I    X       ~       C




        OEI-07-09-00300               N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   25
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   26
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   27
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   28
A   P P     E   N     D I      X      ~      C




    OEI-07-09-00300         N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   29
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Deborah K. Walden, Deputy Regional
                  Inspector General.
                  Julie Dusold Culbertson served as the project leader for this study.
                  Other principal Office of Evaluation and Inspections staff from the
                  Kansas City regional office who contributed to the report include
                  Perry Seaton and Dennis Tharp; central office staff who contributed
                  include Pamela J. Langer and Talisha Searcy.




OEI-07-09-00300   N I H A D M I N I S T R AT I O N   OF THE   CLINICAL   AND   T R A N S L AT I O N A L S C I E N C E AW A R D S P R O G R A M   30
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
